  

  
  


                   U.S. Department of Energy
                   Office of Inspector General
                   Office of Audits and Inspections
             
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
     Audit Report
  
  
  
     The Office of Environmental
  
  
  
     Management's Disposition of
  
  
     Transuranic Waste
  
  
  
  
  
  
  
  
  
  
  
  

     OAS-L-13-09                               May 2013
                           1
                                 Department of Energy
                                    Washington, DC 20585

                                         May 28, 2013

              
MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY FOR WASTE
               MANAGEMENT



FROM:                    David Sedillo, Director
                         Western Audits Division
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Office of Environmental
                         Management's Disposition of Transuranic Waste"

BACKGROUND

The Waste Isolation Pilot Plant (WIPP) is the Department of Energy's (Department) underground
repository for contact-handled (CH) and remote-handled (RH) transuranic (TRU) waste. The
WIPP Land Withdrawal Act limits WIPP's total capacity for TRU waste to 175,600 cubic meters
(m³), of which no more than 7,080 m³ can be RH waste. Under the Act, the U.S. Environmental
Protection Agency regulates repository waste disposal operations and shares that responsibility
with the State of New Mexico. In October 1999, the New Mexico Environment Department
(New Mexico) granted a Hazardous Waste Facility Permit to the Department to begin storage
and disposal of TRU waste, although RH disposal did not commence until 2007. The Permit
requires approval by New Mexico of any planned changes to the permitted facility that may
result in noncompliance with permit requirements.

At the beginning of Fiscal Year (FY) 2011, the Office of Environmental Management (EM)
established a strategic goal, in addition to operational goals, to complete disposition of 90
percent of the Department's legacy TRU waste by the end of FY 2015. While EM is also
responsible for the TRU waste that the Department continues to generate, newly generated waste
is not specifically included in the strategic goal. To achieve the 90 percent goal, EM needed to
dispose of approximately 40,000 m³ of waste, or an average of 8,000 m³ per year. EM did not
establish specific goals for CH or RH disposal within the overall metric. The planned annual
metric was reduced to 6,000 m³ for FY 2012 and 4,500 m³ for FY 2013 because of funding
limitations. We initiated this audit to determine whether EM was effectively managing and
disposing of its TRU waste relative to its strategic 90 percent waste disposal goal.

RESULTS OF AUDIT

We found that while EM had made progress in meeting its operational disposal goals, it was not
on track to meet its goal to dispose of 90 percent of the Department's legacy TRU waste by the
end of FY 2015. In particular, EM faces a number of challenges in meeting its planned 90
percent waste disposal goal by 2015. Additionally, without further modifications to the
repository or existing waste disposal practices, WIPP may not have capacity for disposal of the
current RH inventory. EM is aware of the challenges and has identified alternative actions to
alleviate the situation.

                                     EM TRU Waste Goals

We found that EM surpassed its annual TRU waste disposition metrics for FYs 2011 and 2012.
Specifically, EM disposed of a cumulative 14,866 m³ compared to its revised 2-year target of
14,000 m³. However, we determined that EM is behind schedule and is not likely to achieve its
goal to dispose of 90 percent of legacy TRU waste by the end of FY 2015. To achieve this goal,
EM needed to achieve its original metrics, which totaled 16,000 m³ in FYs 2011 and 2012. EM
officials recognize that they are behind and explained that when this goal was formulated it was
an ambitious measure requiring sustained funding at levels obtained under the American
Recovery and Reinvestment Act of 2009 (Recovery Act). WIPP's peak annual funding during
the Recovery Act in FYs 2010 and 2011 exceeded $270 million while its FY 2012 budget
dropped to approximately $228 million. Its FY 2013 budget further decreased to $202 million.
EM officials also told us that recent funding decreases at generator sites adversely affected
achievement of the goal by limiting the amount of waste processed for disposal.

EM officials told us that they focused on removing the easiest to process waste first and that
remaining waste will be more difficult and potentially more expensive to process because of its
current storage condition. Accordingly, meeting disposal goals with less funding will be
difficult. EM Program officials told us that they will not be able to achieve the 90 percent goal
under current funding scenarios, but noted that EM had not completely abandoned the 90 percent
goal. However, one Program official acknowledged that annual TRU waste disposal
performance targets do not support achieving the 90 percent goal by the end of FY 2015. EM
officials also explained that progress toward the 90 percent goal was adversely affected by recent
New Mexico wildfires that caused them to reprioritize their efforts and not focus solely on
legacy TRU waste.

Although EM faces challenges in achieving its 90 percent TRU disposition goal, at the time of
our audit, it was on-track to meet its current state commitments for waste disposal. For example,
the Department and New Mexico established a non-binding agreement to address the highest
risk, above-ground TRU waste at Los Alamos National Laboratory. This agreement, known as
the Framework Agreement, committed the Department to dispose of approximately 3,706 cubic
m³ of above-ground TRU waste by June 30, 2014. EM surpassed its FY 2012 metric for meeting
the Framework Agreement requirements. Similarly, the 1995 Settlement Agreement between the
Department and the State of Idaho requires the Department to disposition all of the TRU waste at
Idaho National Laboratory's Advanced Mixed Waste Treatment Project, estimated at 65,000 m³,
prior to December 31, 2018. While the Department is currently on schedule to meet its
commitments to New Mexico and Idaho, potential budget cuts may affect waste disposal
progress.

                                 RH Disposal Capacity at WIPP

We also found that EM has underutilized WIPP's approved disposal capacity for RH TRU waste.
Specifically, as of the end of FY 2012, EM had used only 299 m³ of RH TRU disposal capacity
                                                2
of the potential 1,023 m³ capacity. This equates to a loss of 71 percent of RH waste disposal
capacity available to date. WIPP's current regulatory approved design allows waste disposal in
eight underground disposal units that are referred to as panels. EM emplaces RH waste into the
walls of the panels then places the CH waste on the floors of those same panels. EM loses any
unused RH capacity as they fill a panel with CH waste, since the RH positions in the walls can
no longer be accessed. We previously identified the underutilization of RH capacity in our
report on Disposal of Remote-Handled Transuranic Waste at the Waste Isolation Pilot Plant
(DOE/IG-0613, July 2003), which concluded that if EM continued to focus on CH waste
emplacement, the repository would not be able to accommodate all of the planned RH shipments.
In response, the Department disagreed with the results and recommendations of the report. Since
that report was issued, EM's emplacement practices have not changed significantly and the
Department has continued to underutilize WIPP's RH capacity, thus narrowing its options to
remedy the situation. Assuming current waste emplacement practices, WIPP may run out of RH
waste disposal capacity. Specifically, we found that EM estimates that it has approximately
3,538 m³ of RH TRU waste to dispose of and that WIPP currently has a remaining RH disposal
capacity of 2,912 m³. This potential lack of disposal capacity exists without factoring in about
1,500 m³ of additional RH waste that may eventually require disposal at WIPP.

According to EM, factors other than the full utilization of WIPP's RH disposal capacity were the
primary drivers of the program. In particular, EM has focused on large volume reductions of
legacy TRU waste, the majority of which is CH waste, which requires less time, effort and
money to process compared to RH waste. Further, large volumes of CH waste were readily
available for disposal, thus allowing large volume reductions by focusing on CH waste. In
addition, EM's current focus is meeting states' compliance commitments, which focus primarily
on CH waste. EM officials also told us they recognize the need to continually refocus the TRU
waste program and indicated that its focus going forward is more balanced and will include
maximizing repository capacity.

Currently, EM is considering two options that could enable WIPP to accommodate more RH
waste. First, in August 2011, EM submitted a request to the Environmental Protection Agency to
relocate two of WIPP's planned disposal panels from the main access tunnels to the area south of
the other disposal panels, which could allow emplacement of additional RH waste. Second, in
November 2012, New Mexico granted a Permit modification to allow disposal of RH waste in
shielded containers. Shielded containers allow certain RH waste streams to meet the reduced
radiation dose rate limits for CH waste containers so that they can be emplaced in the repository
in a manner similar to CH waste. While these two options may increase RH disposal capacity,
we determined that they may not be sufficient to completely solve the problem. We found that
only a little more than half of the RH inventory could potentially qualify for shipment and
disposal in shielded containers. Furthermore, based on previous production costs of shielded
containers, we estimate the cost to manufacture enough shielded containers for the potentially
qualifying RH inventory to be more than $200 million which, given the current budget situation,
may be cost-prohibitive. While EM officials asserted that transportation and other efficiencies
will likely more than offset the costs of the shielded containers, the details of these efficiencies
were not provided.

EM officials told us that they recognize the potential repository capacity issues and believe that
other factors may come into play that would affect its plans for resolving the issue. In particular,
                                                 3
because funding levels have decreased and CH waste streams are anticipated to be more difficult
to dispose of than they have been in the past, the rate of emplacement of CH waste may decrease
allowing EM to utilize a greater percentage of WIPP's RH capacity. EM officials also recognize,
however, that the cost to dispose of RH waste is higher than that for CH and that funding levels
may not provide for higher RH waste disposition rates. Further, while we were told that some of
EM's Department-wide projected RH inventory may qualify as either CH or low-level waste, the
extent to which this may occur is unknown. EM officials also stated that another possible
solution would be to physically separate RH waste disposal from CH waste disposal, but they did
not explain how this would occur under the current design of the repository.

                                           Future Plans

EM is at risk of not having sufficient RH TRU waste disposal capacity at the WIPP under
existing disposal practices. While EM's planned actions may improve RH capacity utilization,
until these actions are fully implemented WIPP's ability to accommodate all of EM's RH waste is
uncertain. In addition, by not achieving disposition of 90 percent of legacy TRU waste by the
end of FY 2015, the risk reduction originally envisioned when the goal was established may not
occur. This change may lead to increased costs and a decrease in public confidence and
credibility with states. EM officials asserted that its current priorities actually achieve greater
risk reduction sooner than would have been realized if the focus remained on achieving the 90
percent goal.

SUGGESTED ACTIONS

In recognition of the potential risks facing the National TRU Program, we suggest that the
Deputy Assistant Secretary for Waste Management continue to assess and monitor the options
for meeting the challenges facing the TRU disposition program.

Attachment

cc: Deputy Secretary
    Acting Administrator, National Nuclear Security Administration
    Senior Advisor for Environmental Management
    Chief of Staff




                                                 4
                                                                                      Attachment



                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The audit objective was to determine whether the Office of Environmental Management (EM)
was effectively managing and disposing of its transuranic (TRU) waste relative to its strategic 90
percent waste disposal goal.

SCOPE

The audit was performed between April 2012 and May 2013. We conducted the audit at the
Waste Isolation Pilot Plant (WIPP) and Carlsbad Field Office (Carlsbad), located in Carlsbad,
New Mexico; Los Alamos National Laboratory (Los Alamos) in Los Alamos, New Mexico; and
the Idaho National Laboratory (Idaho), near Idaho Falls, Idaho.

METHODOLOGY

To accomplish the audit objective, we:

      Reviewed applicable laws, regulations, and state commitments pertaining to TRU waste
       disposal;

      Held discussions with Federal and contractor personnel at Carlsbad, Los Alamos, and
       Idaho;

      Assessed EM's past performance and their future plans regarding TRU waste disposal;
       and,

      Reviewed WIPP's design and capabilities.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our conclusions based on our audit objective. The audit included tests of controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective. In
particular, we assessed the Department's implementation of the GPRA Modernization Act of
2010 and concluded that the Department had established performance measures for managing the
disposition of TRU waste. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our audit. We
conducted an assessment of computer-processed data relevant to our audit objective and
concluded that it was sufficiently reliable.

An exit conference was held on May 3, 2013.




                                                5
                                                                    IG Report No. OAS-L-13-09

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
   




The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                       http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
   


   

   

   

   
